<html>
<title> - CODE TALKERS</title>
<body><pre>[Senate Hearing 108-693]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-693

                              CODE TALKERS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

  CONTRIBUTIONS OF NATIVE AMERICAN CODE TALKERS IN AMERICAN MILITARY 
                                HISTORY

                               __________

                           SEPTEMBER 22, 2004
                             WASHINGTON, DC



                    U.S. GOVERNMENT PRINTING OFFICE
96-125                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Brown, John S., Chief of Military History and Commander, U.S. 
      Army Center of Military History............................     5
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      chairman, Committee on Indian Affairs......................     1
    Inhofe, Hon. James M., U.S. Senator from Oklahoma............     2
    Johnson, Hon. Tim, U.S. Senator from South Dakota............     9
    Keahna, Samson, Vietnam veteran, Sac and Fox Tribe of the 
      Mississippi in Iowa........................................    18
    Kerchee, Melvin, secretary-treasurer, Comanche Nation........    17
    Loudner, Donald, National Commander, National American Indian 
      Veterans Association.......................................    13
    Mansfield, Gordon H., Deputy Secretary of Veterans Affairs, 
      Department of Veterans Affairs.............................     3
    Meadows, William C., professor, Department of Sociology and 
      Anthropology, Southwest Missouri State University..........    19
    Pushetonequa, Wayne, council member, Sac and Fox Tribe of the 
      Mississippi in Iowa........................................    18
    Pyle, Gregory E. chief, Choctaw Nation of Oklahoma...........    15
    Roberts, Robin, Meskwaki Tribal Member.......................    12
    Steele, John Yellow Bird, President, Oglala Sioux Tribal 
      Council....................................................    13
    Wolf Guts, Clarence, Oglala Codetalkers......................    11

                                Appendix

Prepared statements:
    Brown, John S. (with attachment).............................    25
    Chibitty, Charles, Comanche Code Talker......................    27
    Keahna, Samson...............................................    28
    Kerchee, Melvin..............................................    28
    Loudner, Donald..............................................    29
    Mansfield, Gordon H. (with attachment).......................    31
    Meadows, William C. (with attachment)........................    38
    Pyle, Gregory E. (with attachment)...........................    58
    Roberts, Robin (with attachment).............................    59
    Steele, John Yellow Bird.....................................    89
    Wolf Guts, Clarence..........................................    92

 
                              CODE TALKERS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 22, 2004


                                       U.S. Senate,
                               Committee on Indian Affairs,
    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
562, Dirksen Senate Building, Hon. Ben Nighthorse Campbell 
(chairman of the committee) presiding.
    Present: Senators Campbell, Inouye, Cantwell, Conrad, 
Dorgan, Inhofe, Johnson, Murkowski, Thomas.
    The Chairman. The committee will now turn to its hearing, 
which is the committee oversight hearing on the background, 
history and contributions of Native American code talkers in 
American military history.
    Senator Conrad. Mr. Chairman, might I just inquire, will 
this be the last meeting of the committee before Congress 
adjourns?
    The Chairman. No; we have several more.
    Senator Conrad. Good.
    The Chairman. One will be an investigative hearing on 
September 29 and I am not sure what else is on the agenda. We 
will have several more.
    Senator Conrad. All right.

        STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S.
         SENATOR FROM COLORADO, CHAIRMAN, COMMITTEE ON
                         INDIAN AFFAIRS

    The Chairman. In the year 2000, Federal legislation was 
enacted to award Congressional Gold Medals to the Navajo 
codetalkers for their contribution to America's victory over 
the Japanese Empire in World War II. From the end of the war in 
1945-68, the very existence of the Navajo codetalkers was a 
military secret. In the years since, there have been books 
written about the Navajo codetalkers and in 2001 a motion 
picture heralded their efforts.
    However, many Americans do not know that members of nearly 
16 other Indian tribes served as codetalkers in World War I and 
World War II and have never been formally recognized for their 
service to our country. These codetalkers include members of 
the Comanche, Cheyenne, Cherokee, Osage, Lakota, and Dakota 
Sioux, the Chippewa, the Oneida, the Sac and Fox, the Meskwaki, 
the Hopi, Assiniboine, Kiowa, Pawnee, Menominee, the Creek and 
the Seminole Tribes.
    Displayed on the easels to the right and the left of the 
dais, there are pictures from archives, including a picture of 
the Choctaw codetalkers in World War I. They were the first 
codetalkers that played a role in American military operations 
and transmitted vital communications that helped defeat German 
forces in Europe in World War I.
    We also have a picture of a large group of Comanche 
codetalkers who served in World War II, as well as photos of 
Meskwaki codetalkers. The Meskwaki picture is a shot of a young 
Frank Sanache, who until his death last month was among the 
last living codetalkers of his tribe. We are fortunate to have 
one codetalker, Clarence Wolf Guts, a member of the Oglala 
Sioux Tribe, who will be testifying today.
    These Native American codetalkers played a key role in the 
success of our military activities. They have served their 
country honorably and contributed to the well-being and freedom 
of many people in the United States.
    Senator Inouye could not be here today, but I would be glad 
to yield to Senator Inhofe from Oklahoma, if you have comments.

 STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    I would like to make some comments. We have been concerned 
about this for a long time, that this gathering is long 
overdue. Most of you know that people, including myself, have 
been working for years to recognize these individuals. It was a 
great moment just a few weeks ago when we had the World War II 
Monument unveiled. It will be a great moment still when the 
codetalkers are specifically recognized for contributing to the 
fight for the freedom of our country around the world, in both 
World War I and World War II.
    The first reported use of Indian codetalkers was on October 
17, 1918. At that time, most of the Indian people in the United 
States, including members of the Choctaw Nation, which you did 
not mention in your opening statement, were not accorded the 
status of citizens of the United States. Without regard to this 
lack of citizenship, many members of the Choctaw Nation joined 
many members of other Indian tribes and nations and enlisted in 
the armed services to fight on behalf of the United States.
    The members of the Choctaw Nation enlisted in the American 
Expeditionary Force which began hostile actions in France in 
the fall of 1917. One of my closest friends is Greg Pyle. He is 
the chief of the Choctaws who is here as one of our witnesses 
today, Mr. Chairman. We have been friends for a long time. We 
talked about this and talked about the fact that we had a 
number of Choctaws, and that caused me to introduce legislation 
to include not just the Choctaws, but two other tribes, but 
primarily consideration of the Choctaws.
    Charles Chibitty, sometimes he comes. Is Charles Chibitty 
in the room? I guess he is not. He is in very poor health. He 
was here a couple of years ago. It was kind of funny. He used 
to talk about how they would discourage Choctaws or Indians 
from using their native language back in those days until they 
developed this codetalking. I have a quote here by him. He 
said, when we got caught talking Indian, we got punished. After 
the Army years later, he told his cousin, they tried to make us 
quit talking Indian in school, and now they want us to talk 
Indian.
    Well, we are all glad they did not quit talking Indian, 
Greg. Anyway, I want to pay special tribute to him. I am sorry 
that his health did not permit him to be here today. He is 
certainly one of our heroes in Oklahoma and we will make sure 
that he gets a proper recognition.
    So while this hearing is not on my legislation, it is being 
taken up in the Banking Committee and it requires 67 
cosponsors, and Greg, right now we only have 24. We have not 
really spent some time trying to get this done, but we are 
going to do it.
    I appreciate very much what you are doing here today, Mr. 
Chairman.
    The Chairman. I tell my colleague, frankly, I do not know 
if I am on that bill or not, but if I am not, if you would put 
me on as a cosponsor, I'd be honored.
    Senator Inhofe. Now I have 25.
    The Chairman. Now you have 25. That is right. It is 
interesting that American Indians have been in every war since 
the Revolutionary War defending this Nation, and yet before 
1924 they could not even vote for the Commander-in-Chief, for 
example, the President, who was the supreme commander of all 
military, because they were not considered citizens yet, yet 
they were out there putting their lives on the line.
    Senator Inhofe. That is true. We had an opportunity to 
honor one Oklahoma Indian at Fort Sill not too long ago who was 
one of the real heroes. He is the one who intentionally drove 
his tank out into an opening and drew the German fire to save 
his unit. So we have a lot of heroes, and we were able to get 
him posthumously awarded a medal. This was probably about six 
or seven years ago.
    The Chairman. Yes, good.
    If there are no further opening statements, we will go 
ahead and proceed to panel 1. Gordon Mansfield is the Deputy 
Secretary of Veterans Affairs for the Department of Veterans 
Affairs. Brigadier General John Brown is Chief of Military 
History and Commander of the U.S. Army Center of Military 
History.
    Gentlemen, why don't we go in that order. Mr. Mansfield, go 
ahead first.

STATEMENT OF GORDON H. MANSFIELD, DEPUTY SECRETARY OF VETERANS 
            AFFAIRS, DEPARTMENT OF VETERANS AFFAIRS

    Mr. Mansfield. Thank you, Mr. Chairman, and good morning. I 
have a full statement for the record, if I could submit it for 
you.
    The Chairman. It will be included in the record and you may 
abbreviate, if you would like.
    Mr. Mansfield. I am pleased to be here to present the 
department's views on the presentation of medals to Native 
American codetalkers. The timing is really interesting. I had 
the opportunity 10 days ago on September 12 to be a part of the 
dedication of the codetalkers monument on the Navajo Nation. 
They put up that statue, which is really something, right on 
sacred ground, right at Window Rock. I would offer a brochure 
from the dedication for the record also.
    The VA commends you for acknowledging the distinguished 
service in performing invaluable communications operations 
through the use of unique languages that saved countless lives 
and hastened the end of both World War I and World War II. The 
Department of Veterans Affairs has long acknowledged the 
honorable service of our American Indian veterans. They have 
served with distinction in United States military actions, as 
you mentioned, throughout our history. Their valor and courage 
is well documented. It is only right that we further honor that 
same valor and courage with appropriate recognition.
    Today, there are more than 220,000 American Indian 
veterans. In an effort to better address the health care needs 
of these veterans, the Veterans Health Care Administration and 
the Indian Health Service signed a memorandum of understanding 
in 2003 that seeks to combine the strengths and expertise of 
both of these organizations to deliver quality health care 
services to American Indian and Alaska Native veterans.
    To accomplish these goals, the Indian Health Service and 
the Veterans Health Administration are working to establish 
outpatient clinics and contract care partnerships at 
reservation facilities. We are also planning tele-health 
linkages that facilitate the remote delivery of health care 
checkups and mental health and counseling services by 
appropriate specialists.
    The Veterans Benefits Administration outreach coordinators 
participate in a variety of outreach efforts to provide VA 
briefings on reservations and to local American Indian groups. 
In 2002, the VBA developed benefits training for tribal 
veterans' representatives to serve as a resource for 
information on benefits and services and claims submissions. In 
the past two years, 35 tribal veterans' representatives have 
received training on the claims process, VA benefits and 
services, and health care enrollment.
    The VA also administers the Native American Veterans Direct 
Loan Program for Indian veterans living on trust lands. This 
program assists American Indian veterans in financing the 
purchase or improvement of homes on federal trust territories. 
So far, the VA has made almost 400 loans to American Indian 
veterans, closing 120 loans in fiscal year 2003.
    Recently, Secretary Principi strongly supported the 
enactment of H.R. 2983, the Native American Veterans Cemetery 
Act of 2003, to provide eligibility of Indian tribal 
organizations for grants to establish veterans cemeteries on 
trust lands in the same way that grants for state veterans 
cemeteries are made. Currently, the National Cemetery 
Administration encourages participation of tribal interests in 
efforts to establish state veterans cemeteries. NCA also seeks 
to accommodate religious practices and American Indian veterans 
and their families are able to perform tribal rituals in VA's 
national cemeteries.
    The VA will continue to explore all opportunities to 
increase eligible American Indian veteran participation in the 
benefits and health care services that we provide.
    Again, we acknowledge the honor and pride with which 
American Indians have served their country in the military, and 
especially salute the extraordinary contributions of the Native 
American codetalkers. We support the Senate's efforts to 
acknowledge their contributions through these legislative 
efforts. We stand ready to serve them as they have so gallantly 
served their country.
    Mr. Chairman, this completes my statement. I will be happy 
to respond to any questions.
    [Prepared statement of Mr. Mansfield appears in appendix.]
    TheChairman. Thank you, Mr. Mansfield. I was just 
reminiscing with Paul Moorehead, the head of our staff for 
Indian Affairs. I think that was one of the first bills I 
introduced years ago on the committee that authorized the VA to 
enter MOUs with tribes to be able to provide money for houses 
on Indian reservations.
    Before that time, they simply could not. An Indian vet 
would come home and he could not get a loan from the bank to 
build on tribal land.
    We did an oversight hearing about 2 or 3 years after that 
bill passed to find out how it was going. At that time, there 
were only three Indians in the whole country that had taken 
advantage of that program. I am glad to hear that at least 400 
have now.
    Mr. Mansfield. Yes, sir.
    The Chairman. I think part of that was our fault, that we 
did not network or get the word out very well through tribes, 
that Indian veterans could avail themselves of that program, 
but it sounds like it is a good program and successful.
    Mr.Mansfield. We are attempting to make it work even 
better, sir.
    TheChairman. Great.
    General Brown, thank you for being here. Why don't you go 
ahead and proceed? Your complete testimony will be included in 
the record if you would like to abbreviate.

  STATEMENT OF BRIGADIER GENERAL [R] JOHN S. BROWN, CHIEF OF 
 MILITARY HISTORY AND DIRECTOR, ARMY CENTER OF MILITARY HISTORY

    Mr. Brown. Thank you, sir, for this opportunity to comment 
on the contributions of Native American codetalkers in American 
military history. Native Americans have a long and proud 
tradition of military service to their several Nations and to 
the United States of America. Our Army archives are replete 
with tales of their valor and Army museums feature equipment 
they have used and medals they have won under trying 
circumstances.
    Among their unique contributions has been their service as 
codetalkers to secure command and control on the battlefield. 
By the early years of the 20th century, command and control had 
become heavily dependent upon electrical communications. Vastly 
increased distances, dispersion and spans of control required 
the use of what were then considered modern technologies such 
as sound locators, buzzer phones and radios, with the land-line 
telephone emerging as the preferred and most reliable means of 
communication for ground combat during World War I.
    Unfortunately, land-lines could be tapped and our German 
adversaries too often listened in. The 36th Division, for 
example, reported having circulated the coordinates of a supply 
dump only to find that location inundated by enemy fire within 
minutes. Other divisions similarly reported facilities or 
operations compromised and lives lost because of intercepted 
communications. Techniques of encryption that did exist proved 
too cumbersome to accommodate fluid battlefield tactics.
    That same 36th Division had within its ranks a company of 
American Indians who spoke a total of 26 Native languages. Only 
four or five of those languages had been committed to writing. 
Someone suggest placing an American Indian soldier in each key 
tactical command post so that the division could rapidly 
communicate sensitive information in a language that the 
eavesdropping Germans could not possibly understand. Choctaw 
was selected as that language.
    The experiment worked so well that a regimental commander 
attributed the success of a delicate nighttime tactical 
withdrawal and again a major assault on the following day to 
the complete surprise achieved by using Choctaw language to 
coordinate operations. The idea caught on. By the end of World 
War I, Cherokee, Cheyenne, Comanche, Osage, and Yankton 
soldiers were also serving as codetalkers.
    When World War II began, the U.S. Army and Marine Corps 
drew upon the service of codetalkers in a more organized 
manner. By then, the preferred method of communication was 
increasingly wireless radio. However, radio signals were even 
more vulnerable to interception than the telephone. In January 
1941, the U.S. Army recruited Comanche codetalkers to serve in 
its Fourth Infantry Division. A few months later, the Marines 
began recruiting Navajo for the same purpose.
    In the European theater, the Army's Comanche codetalkers 
came ashore on D-Day. On Utah Beach, a Comanche codetalker, 
Larry Saupitty, sent Brigadier General Roosevelt's critical 
message to reinforce an initial landing that had ended up 2,000 
meters away from its designated beaches. Saupitty's message was 
classic in its simplicity: ``We made a good landing. We landed 
at the wrong place.'' The follow-on reinforcements came to the 
right place.
    As Allied troops pushed out of the beachhead, codetalkers 
accompanied the leading regiments and provided communication 
throughout the breakout across France. Scattered throughout the 
division in two-man teams, codetalkers relayed vital messages 
that utterly precluded enemy interceptions of them.
    In the Pacific, the Navajo codetalkers took part in every 
major Marine Corps operation and served in all six Marine 
divisions, transmitting messages by telephone and radio in 
their native tongue. First used on Guadalcanal in the fall of 
1942, Navajo techniques halved the time used for encoding and 
decoding messages. Their greatest test was in early 1945, when 
three Marine divisions stormed Iwo Jima. In the first 2 days of 
fighting, six Navajo codetalkers worked around the clock 
sending and receiving more than 800 messages without a single 
error. One Marine Corps signal officer noted, ``Were it not for 
the Navajo, the Marines would never have taken Iwo Jima.''
    I highly recommend William C. Meadows' book, ``The Comanche 
Code Talkers of World War II,'' as a discussion of the Army's 
codetalking contingent, and Doris A. Paul's, The Navajo Code 
Talkers, as a discussion of the Marines'. I point out, too, 
that the Navajo were the subject of the recent movie, 
``Windtalkers.''
    Perhaps less familiar to the public, but equally deserving 
of our praise, are the Assiniboin, Cherokee, Chippewa, Oneida, 
Choctaw, Hopi, Kiowa, Menominee, Muscogee, Creek, Seminole, 
Pawnee, Sac, Fox, Lakota, and Dakota, who also served in our 
armed forces as codetalkers. It is impossible to calculate how 
many operations were successful and how many lives were saved 
because of communications secured by the codetalkers. It may 
well be that contemporary encryption technology has carried us 
beyond the era in which the services of the codetalkers proved 
most useful. However, an underlying principle remains valid--
that the diversity and richness of American culture renders it 
far more capable than it would otherwise be of coping with the 
challenges of an uncertain world.
    In addition, the unique and extraordinary record of Native 
American service in the armed forces of the United States 
continues unbroken as our accumulating record of current 
operations attests.
    Thank you, sir.
    [Prepared statement of Mr. Brown appears in appendix.]
    The Chairman. Thank you, General Brown. Let me ask a couple 
of questions, then I will yield the floor to my colleagues 
here.
    Senator Inhofe. My request, Mr. Chairman, is I wanted to be 
here.
    The Chairman. He is going to be on the third panel.
    Senator Inhofe. Okay. As you know, I am chairing the 
Highway Conference Committee and I have to get back to that. I 
was kind of wanting to hear his statement, but thank you very 
much, Mr. Chairman.
    The Chairman. Secretary Mansfield, does the Department of 
Veterans Administration support a formal recognition of the 
codetalkers, the ones who we are talking about today?
    Mr. Mansfield. Yes, sir; we do.
    The Chairman. Obtaining documentation of American Indian 
codetalker veterans is important, but I would imagine a very 
difficult process for their formal recognition. Does the VA 
keep certain records in regards to the Indian codetalker 
veterans?
    Mr. Mansfield. Sir, I do not think we would have any 
indicator specifically that would indicate that a person was a 
codetalker, but I would promise you that we would make every 
effort we can to assist in making those identifications.
    TheChairman. You would be able to do that probably with 
some tribal input, too, I would think.
    Mr.Mansfield. I think it would require some tribal input, 
plus we would have to go back to the records and do some 
searches.
    TheChairman. All right.
    General Brown, in the Center of Military History, is the 
Center of Military History looking into the project to further 
identify codetalker veterans?
    Mr. Brown. We are promulgating a Signal Corps history that 
gives further attention to the codetalkers and to their 
contribution.
    The Chairman. There is no written history about all of them 
now, though, is there?
    Mr. Brown. There is no consistent history that treats all 
of them equitably. Most of our histories speak to one of more 
of the tribes, and then lists the other tribes that made 
contributions, but there is no coherent history that speaks to 
all of them equivalently, no, sir.
    The Chairman. You mentioned at length the Choctaw 
codetalkers and citizenship. World War I, the last 4 years 
between 1914 and 1919, they did not have citizenship, as you 
know. You will have to tell me as a military history expert, 
was there a draft in that time? How did the codetalkers get in? 
Were they all volunteers or did they just go out and ask them 
to volunteer?
    Mr. Brown. There was a draft, but in World War I----
    The Chairman. If they were not citizens, how did they draft 
them?
    Mr. Brown [continuing.] In World War I, the Indians who 
participated in the Army were volunteers.
    The Chairman. As volunteers, to their credit.
    Do you know the numbers? I was surprised to find out there 
were 16 tribes. I knew there were more than just the Navajo and 
the Comanche, but I did not know there were 16. Do you know the 
number of particular codetalkers, because so much has been 
secret for so many years.
    Mr. Brown. It is very difficult to reconstruct accurate 
figures because so many of the codetalkers served in informal 
rather than formal programs. So codetalking that originated at 
the division level and below would not have become a matter of 
record, and also would not have gotten on to a personal record. 
So only the tribes could tell you who of their soldiers served 
in that capacity.
    I would say that from the readings that we have executed, 
virtually all of the American Indians who spoke both their 
native tongue and English were used at one time or another in 
this capacity, and that would come to about at least 21,000 
soldiers in the U.S. Army alone.
    The Chairman. 21,000, perhaps, you said?
    Mr. Brown. 21,000 in the Army, with perhaps 30,000 for the 
armed forces as a whole. In addition to that, when you come to 
formal programs, specifically the programs that have entered 
the record, you have contingents of 20 or more from about seven 
of the tribes, and then the Navajo were recruited even more 
heavily and they had 420 in their contingent. But the formal 
programs, in my view, were the tip of the iceberg and the 
informal programs saw a much larger participation.
    The Chairman. Thank you. There is no question we need to 
give recognition where recognition is deserved. You probably 
will not have the answer to this, but just let me maybe get 
your opinion. I was talking to staff about maybe some of the 
small things that we can do just to start some recognition 
process. One of the things I personally would like to do is 
have a plaque cast for each of those 16 tribes from which the 
codetalkers came that we could send for some permanent display 
in their tribal council or at some location of their choice on 
reservation. Do you think the Department of Defense would 
support that effort?
    Mr. Brown. I am a bit out of my lane, but I would say that 
the Center of Military History certainly would support that.
    The Chairman. I think we are going to introduce that at 
least, and try to attach that to something on the way through 
in these last few days. I will be talking to Senator Inouye 
about it, who is a great war hero himself, as you know, and 
perhaps we can get at least that little thing done in these 
last few days.
    We will go to our second panel. Senator Johnson, did you 
have any opening comments or statements?

 STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Yes; I do, Mr. Chairman. I want to thank 
you and Vice Chairman Inouye for permitting the hearing to take 
place. I would especially like to thank Senator Daschle for his 
ongoing leadership and dedication to Indian issues and his 
request for this hearing to take place. Senator Daschle is a 
blessing to our tribes in South Dakota, and they truly have no 
better friend in Washington.
    I would like to extend a warm welcome to our South Dakota 
witnesses to the committee. We are happy to have Clarence Wolf 
Guts, a former Lakota codetalker, here today. I also want to 
welcome Don Loudner of the American Indian Veterans Association 
and other tribal representatives, Robin Roberts, Samson Keahna, 
Melvin Kerchee, and Chairman Greg Pyle. Additionally, I want to 
welcome again Gordon Mansfield and Brigadier General John Brown 
to this panel here today, as well as Dr. William Meadows, 
author of a very valuable work for us, ``The Comanche Code 
Talkers of World War II.''
    As well from South Dakota with us today are Tom Short Bull, 
who is president of the Oglala-Lakota College; President John 
Steele of the Oglala Sioux Nation; Chairman Harold Frazier of 
the Cheyenne River Sioux Tribe; as well as Treasurer Benita 
Clark from Cheyenne River, and one of our veterans, Clifton Sky 
from South Dakota.
    I was just told by Chairman Frazier that a member of the 
Cheyenne River Sioux Tribe was wounded seriously yesterday in 
Iraq, so our prayers go to the family of Garlene Tabia Fiota, 
as well as other members of the Cheyenne River Sioux Tribe. It 
is one more example of the kind of national service that native 
people have for many generations provided the United States.
    Two years ago, I introduced legislation that would award 
medals to all Native American codetalkers. I am glad to see the 
continued support for our effort to give all Native American 
codetalkers the recognition they deserve. In December 2000, the 
Honoring the Navajo Codetalkers Act was signed into law, 
authorizing the President to award a gold medal on behalf of 
the Congress to each of the original 29 Navajo codetalkers, as 
well as a silver medal to each man who later qualified as a 
Navajo codetalker.
    There is no doubt that the bravery and the courage of the 
Navajo codetalkers helped to make the United States the free 
and proud place it is today. While Navajos have received the 
most recognition, it is important to remember that members of 
at least 17 other tribes also served as codetalkers in World 
War I and World War II. This bill will express the gratitude of 
Congress and the entire Nation to these brave and innovative 
veterans for their contributions and sacrifices to the struggle 
for freedom and democracy.
    The syntax and tonal qualities of languages as unique as 
their people were so complex that no message transmitted by any 
codetalker was ever decoded by the enemy. However, for the 
codetalkers who returned home there were no parades or special 
recognition, as they were sworn to secrecy, an oath they kept 
and honored, but one that robbed them of the accolades and 
place in history that they rightfully deserved.
    When the secrecy surrounding the code was finally lifted, 
only then could the country realize the importance of these 
brave soldiers. Military commanders credited the code with 
saving the lives of countless American soldiers and with the 
successful engagements in the battles of Guadalcanal, Tarawa, 
Saipan, Iwo Jima, and Okinawa.
    The accomplishments of the codetalkers were even more 
heroic, given the cultural context in which they were 
operating. Subjected to alienation in their homeland and 
discouraged from speaking their native languages, they still 
stepped forward and developed the most significant and 
successful military code of their time. That spirit of military 
service continues today. Native Americans make up a higher 
percentage of servicemen and servicewomen in the armed forces 
than any other ethnic group in America. They have served with 
honor in all of America's wars, beginning with the 
Revolutionary War and on through our current operations in 
Iraq.
    Sadly, this past November Sheldon Hawk Eagle, a member of 
the Cheyenne River Sioux Tribe in South Dakota and a descendant 
of the great Lakota leader Crazy Horse, made the ultimate 
sacrifice for both of his nations. He was among the 17 soldiers 
who lost their lives when two Blackhawk helicopters crashed in 
Northern Iraq. The sacrifices of PFC Hawk Eagle, the 
codetalkers and all Native Americans to our armed services are 
just an example of the great contributions Native Americans 
have made to strengthen our Nation.
    As we recognize the heritage, strength and history and way 
of life of the first Americans at this week's opening of the 
National Museum of the American Indian, it is time to give all 
Native American codetalkers the long-overdue recognition that 
they clearly deserve. In the twilight of their lives, it is 
only fitting that this Nation at least pays them this honor. It 
is essential that we acknowledge the service of these soldiers 
at perhaps our country's most desperate hour, and finally give 
them their rightful place in history.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    We have no further questions. General Brown, Mr. Mansfield, 
thank you very much for appearing.
    We will go on to our next panel. That will be Clarence Wolf 
Guts, Oglala codetalker from Wanblee, SD. He will be 
accompanied by Don Loudner, the National Commander of the 
National American Indian Veterans Association from Mitchell, 
SD, and John Yellow Bird Steele, the president of the Oglala 
Sioux Tribal Council, and Robin Roberts, Meskwaki tribal member 
of Montour, IA.
    Chief Pyle, we have you on the third panel.
    When Mr. Wolf Guts testifies, President Steele, if he would 
prefer to read in his own language, whatever is more 
comfortable for him, if somebody could interpret for the 
record.
    We will hear from Mr. Wolf Guts first.

STATEMENT OF CLARENCE WOLF GUTS, OGLALA CODETALKER ACCOMPANIED 
                      BY: DONALD LOUDNER,
          NATIONAL COMMANDER, NATIONAL AMERICAN INDIAN
       VETERANS ASSOCIATION; AND JOHN YELLOW BIRD STEELE,
             PRESIDENT, OGLALA SIOUX TRIBAL COUNCIL

    Mr. Wolf Guts. I am here today because my God helped me to 
be with my people and the people of the United States of 
America, because we love America so much that we do whatever we 
can to protect her from aggressors of any kind. Nobody can ever 
take that away from us. We love America.
    I am a full-blood Indian, and we do whatever we can to 
protect the United States because we love America. Nobody can 
ever take that away from us. That is how come I will do 
whatever I can to protect it. With my fellow comrades overseas, 
I was sitting there in the foxhole with a radio, trying to give 
the orders that were given to us to pass on to the chief-of-
staff. You do whatever you can to confuse the enemy. I know 
they were listening to us all the time. They were smart people 
and they listened to us all the time.
    We used our own code and we did whatever we could to 
protect our country. I asked my buddy, he is dead and gone now, 
and I am the only one that is alive from that era. I said, we 
love our country, so we are going to do whatever we can to 
protect that.
    You know, we are Indian, but we know you should do some 
things that are really powerful. Sure, sure, because we want 
America to be free. If the darkness ever took over the world, 
we would all be dead or we would all be slaves to them. We do 
not want that. We do not want it.
    We want our own government to take care of us, to be what 
we are today. We are happy. When I see young children playing 
without any supervision, I realize why we were over there. I am 
proud to be a Lakota Indian. That is what I am, a Lakota 
Indian. Some of the tribe is named Sioux, but we are not Sioux. 
We are Lakota. There are three dialects in South Dakota: 
Nakota, Lakota, and Dakota. When we were talking over the 
radio, we used all of them. Whatever we said, we know what we 
are talking about. We did not want the enemy to come over here 
to America, because we love America.
    That is about all I can say. I want to thank everybody. I 
hope that the good Lord up above is looking down on us to this 
day, and that he can give us the strength and the courage to 
say what we can and to think that we love America and we want 
it to be free.
    I thank you.
    [Prepared statement of Mr. Wolf Guts appears in appendix.]
    The Chairman. Thank you, Mr. Wolf Guts. You are a proud man 
from a proud people.
    It has always interested me that the Lakota people who 
suffered their last great tragedy at the hands of the U.S. 
military and the Federal Government as late as 1891 at Wounded 
Knee, that many of the codetalkers of your age, their 
grandfathers must have been involved in those last free days of 
the Lakota people. And to be able to rise above that to help 
defend a nation, it must have given them some thought about 
what they should do, when they would remember what their 
grandfathers had gone through, and their grandmothers too. So 
we are very proud of you and very proud that you are here, too.
    We will now move on to Mr. Roberts. Go ahead. Your complete 
testimony, if it is written, will be included in the record. 
Please proceed.

       STATEMENT OF ROBIN ROBERTS, MESKWAKI TRIBAL MEMBER

    Mr. Roberts. My name is Robin Roberts, Meskwaki Nation, 
Tama, IA, honorably discharged from the U.S. Marine Corps.
    In 1941, 27 Meskwaki joined the Iowa State Guard. Out of 
those 27, 8 became Meskwaki codetalkers: Frank Sanache, Willard 
Sanache, Michael Wayne Obanisee, Judy Wayne Obanisee, Dewey 
Roberts, Dewey Young Bear, Edward Benson, and Melvin Twin.
    They did their training at Camp Dodge in Johnston, IA. From 
there, they went to more intense training in Louisiana. From 
there, they went to Northern Ireland briefly.
    In the meantime, during World War II, Stalin had opened the 
first front, and then he started telling America, we need a 
second door. So with General Eisenhower and the 34th, in 
November 1942 they invaded Algeria. From there, they fought 
their way to Northern Africa and through the deserts. And then 
in 1942, they went to Southern Italy, where they used naval 
gunfire, aero-gunfire, ground artillery, troops. And they went 
from Salerno to Naples fighting, in which the Meskwaki 
codetalkers were used quite a bit, where they saved a lot of 
lives.
    They themselves, they had to lead assaults carrying their 
backpacks and radios. There were fighting in the rain. They 
were braving the elements of the weather there. They fought in 
the mountains of Naples, where the Germans were dug in very 
heavily. There were a lot of casualties there. There, I believe 
in June 1944, the Allies had taken Rome back.
    So myself personally, I have been working on this for 15 
months. I agreed with a lot of people when they said there were 
18 tribes that were codetalkers, besides the Navajo. I believe 
as I have been working on this, is that not only am I working 
on the Meskwaki's getting these congressional gold medals and 
national recognition, but I am working on all tribes, because 
they all fought for this country. They were not drafted. They 
volunteered because of patriotism. This was not only these 
people's land. It was our land. These are our people, and they 
knew that. This was our homeland. We had our adopted homeland, 
too, the United States.
    So we necessarily did not have to go fight, but these brave 
people, they did. A lot of them came back, when they did come 
back they were scarred mentally and physically. Some never made 
it back. Some of the people forgot this was somebody's son, 
somebody's brother, somebody's husband, somebody's father. I 
think it is due time they are given their national recognition. 
In the U.S. Government, the people of this country, the people 
of this world should realize what these people have sacrificed 
not only for themselves, but for the people. So I would like to 
thank the panel for giving me this time to speak here.
    [Prepared statement of Mr. Roberts appears in appendix.]
    The Chairman. Thank you for being here today.
    President Steele and Mr. Roberts, you are accompanying Mr. 
Wolf Guts. Did you have something you would like to include in 
the record, too?

  STATEMENT OF JOHN YELLOW BIRD STEELE, PRESIDENT, PINE RIDGE 
                       INDIAN RESERVATION

    Mr. Steele. Yes, Senator; my name is John Yellow Bird 
Steele. I am the elected president of the Pine Ridge Indian 
Reservation. I am a Vietnam veteran. The U.S. Government took 
me to the Presidio of Monterey and taught me to read, speak, 
and write the Vietnamese language. So I am sort of a halfway 
codetalker myself.
    I would like to thank General Brown, the historian for the 
VA. For your information, we have a Lakota-Lower Brule Sioux 
Tribe, married into the Oglala Sioux Tribe, but he was a 
codetalker also and his name is not included on there, and that 
is Willie Iron Elk.
    So I would like to have the committee to also include 
Willie Iron Elk as a Lakota codetalker. He was in World War I 
and World War II. So he is quite distinguished and we would 
like his name included.
    I would like to thank you, especially Senator Daschle and 
Senator Tim Johnson, for cosponsoring this, and yourself 
Senator Campbell, and really thank Senator Inhofe for 
introducing this. It is a great honor. The Lakota and Dakota 
peoples, we honor our warriors and our veterans. We thank you 
for honoring our warriors and veterans.
    [Prepared statement of Mr. Steele appears in appendix.]
    The Chairman. Thank you.
    Mr. Loudner, do you have something you would like to say, 
too?

   STATEMENT OF DONALD LOUDNER, NATIONAL COMMANDER, NATIONAL 
              AMERICAN INDIAN VETERANS ASSOCIATION

    Mr. Loudner. Thank you, Mr. Chairman and committee members. 
Thank you for the opportunity to testify today on an issue that 
is very important to me. I am a Korean War veteran. On behalf 
of all American Indian codetalkers, I am honored to be here 
today.
    I yield my time to Clarence, but I just would like to make 
a couple of statements here. The American Indians have a long 
and proud history of service in the military. Statistically, 
the American Indians volunteer to serve their country at a 
higher percentage during all wars or conflicts than any other 
ethnic group. The Department of Veterans Affairs acknowledges 
that American Indians have the highest rate of military service 
among all ethnic groups in the Nation, and the Veterans 
Administration's statistics also show that the American Indian 
veteran is the least likely veteran to apply for benefits he or 
she has earned.
    In talking with Clarence, I accompanied him here yesterday 
on the plane and he brought up some interesting things that I 
would like to bring out that is not in my testimony that you 
have. We need to replace all the headstones of our other 
codetalkers that have passed on, with some type of an 
appropriate saying that they were the elite codetalkers.
    And award some type of a military medal. Clarence told me 
he only got four ribbons for all he had done in the 6 years, 6 
months and 4 days that he served during World War II. He said 
he would like to try and get some type of compensation if 
possible because he told me in his language that he is poor and 
he would like to try to get some type of compensation.
    Thank you for inviting me.
    [Prepared statement of Mr. Loudner appears in appendix.]
    The Chairman. Thank you.
    Thank you, President Steele, for mentioning that when the 
young warriors come home now, they are honored. It was not that 
way, listening to Mr. Loudner. I am also a Korean-vintage 
combat veteran from Korea. You look very young. You must take 
good care of your health. You are not getting wrinkled like us 
old guys from the Korean War.
    Mr. Loudner. I am 73 years old, sir. [Laughter.]
    The Chairman. Let me maybe just say that I think it is 
really a good trend that tribes are going back to the way of 
honoring the young men who came home. Let me ask Mr. Wolf Guts, 
perhaps, too. When you came home, Mr. Wolf Guts, was there any 
kind of recognition or honoring with your own tribe? Did they 
know where you were or where you went?
    Mr. Wolf Guts. I went into the service when I was 18 years 
and 5 months old. I volunteered. They considered me a 
volunteer, an enlistment or a volunteer. Some of my buddies 
were wounded in Hawaii.
    The Chairman. When you came back, were you told not to talk 
about where you had been or that you had been a codetalker?
    Mr. Wolf Guts. I was in high school. I was in school. That 
changed the next year, in 1942, I joined the Army. When the 
doctors passed me number one, right on through.
    The Chairman. Mr. Loudner, why don't you ask him what I 
asked?
    Mr. Loudner. Did they honor you when you came home?
    Mr. Wolf Guts. They wanted to honor us for being Lakota 
codetalkers, and my buddy said, I will buy the regalia and I 
will dance. I want you to sing that song that you sang in 
Hawaii. Okay, I will. And I did. And three of my buddies, two 
of my buddies and I, there were three of us. We had our own 
[INAUDIBLE]. We sang that song like in Hawaii. He danced, thank 
you, thank you. [INAUDIBLE] when he was in Hawaii. I heard that 
same song.
    The Chairman. The Lakota warrior song?
    Mr. Wolf Guts. No; it was not a warrior song. It was a 
regular Indian song, dancing song. I learned that from my 
elders. They were singers and I sang with them. That is where I 
learned how to sing. I did it. And when we came back, I did it. 
We did it. I remember all that. I remember.
    The Chairman. Well, if you still remember it, I used to 
sing Indian. I will come to South Dakota and you can teach me 
that song and we will sing it together, as old veterans.
    Mr. Wolf Guts. Yes; you know, we did not do it for 
ourselves. We did it for our people and the people of the 
United States of America. It was them, and for the people of 
the world, because if the Japanese ever took over the world, we 
will be dead. We did not want that. We gave all we had to do 
what we had to do.
    The Chairman. Thank you.
    Mr. Loudner.
    Mr. Loudner. I would just like to relate one thing that 
Clarence told me this morning when we were coming down here on 
the Metro. He said that before he goes home tomorrow morning, 
he would like to have someone take him down to the World War II 
memorial to show him that, because he said he might never, ever 
come back here.
    So he said he would like to go down here. He said he would 
like to see the President, but I said the President, according 
to the news, is in Pennsylvania or someplace. But maybe we 
could take him down to the memorial.
    The Chairman. The Committee can take care of the first part 
of the request. We will be happy to make the arrangements to 
take him if you will talk to Paul after we adjourn. The 
president, I know his schedule and I just have a hunch that 
might be a lot more difficult on short notice.
    Mr. Roberts, let me ask you just one last question. As I 
understand your testimony, there were eight Meskwaki 
codetalkers?
    Mr. Roberts. Yes.
    The Chairman. And the last one was Frank Sanache?
    Mr.Roberts.Yes; Frank Sanache.
    The Chairman. And he passed away just very recently. Did 
you know him personally?
    Mr. Roberts. No; I think Sam here, he probably knew him 
better than I did.
    The Chairman. He is on the next panel. Maybe I will ask him 
then. But any further information that you have on him, if you 
could provide it to the committee, I would appreciate it.
    Mr. Roberts. Okay. I have a packet here.
    The Chairman. If you have an extra copy, leave that with 
the committee if you would.
    We will go ahead now and move to the last panel, which will 
be Gregory Pyle, the chief of the Choctaw Nation of Oklahoma; 
Melvin Kerchee, Secretary-Treasurer, Veteran, from the Comanche 
Nation of Lawton, OK; and Samson Keahna from the Sac and Fox 
Tribe of Mississippi and Iowa, from Tama, IA.
    They will be accompanied by Wayne Pushetonequa, council 
member of the Sac and Fox; and Dr. William Meadows, Professor, 
Department of Sociology and Anthropology at Southwest Missouri 
State University in Springfield.
    We will start with Mr. Pyle. By the way, all of you, your 
complete written testimony will be included in the record. If 
you would like to abbreviate, that will be fine.
    Go ahead, Mr. Pyle. Thank you for being here.

STATEMENT OF GREGORY E. PYLE, CHIEF, CHOCTAW NATION OF OKLAHOMA

    Mr. Pyle. Thank you very much, Mr. Chairman and Senators 
and friends. I will summarize our testimony, as a matter of 
time.
    As you know, the Choctaw Nation, of course, is out of 
Southeast Oklahoma. We are the third largest tribe in the 
Nation, and yet kind of a quiet tribe down in our area. What we 
have before us today is what has been talked about. I really 
appreciate the military coming in and explaining the situation. 
It is the first time we have had knowledge that they were doing 
this much work in the history area, so we appreciate them.
    Really, what happened is in 1914, as the war started out, 
the Allies had for 3 years lost hundreds of thousands of men. 
In 1917, the United States entered the war and in 1918, they 
had still only moved less than 50 miles in those 4 years.
    Someone heard the Native Americans speaking in their native 
language, which he could not understand. And if he could not 
understand it, he thought maybe the Germans wouldn't either. So 
they experimented by trying just two or three immediately. They 
did not have language in the Choctaw for artillery, so they 
would say big gunfire. And so they started out, and in a matter 
of a couple of days they realized this was really something 
because it was at the time not in written form.
    So they recruited all 18, putting them out there. 
Certainly, these 18 when they came back from World War I, were 
asked to keep this secret, which they did keep the secret, 
very, very effective. As you know, numerous tribes, I think 
some said 16 different tribes in World War II, participated in 
this, because they did keep the secret. But they also did not 
get the credit that we think they deserve.
    So we appreciate your having this hearing for us today. So 
with that, it was kind of the ace in the hole, where you have 
native people volunteering at a higher rate than any other 
ethnic people; many, many not citizens, and only after World 
War I were they considered citizens. So they have always fought 
very valiantly for their home territory.
    I will conclude with that. We really appreciate you, by the 
way, signing on as the 25th cosponsor today. I ask that other 
Senators would consider signing onto this. Thank you very much.
    The Chairman. My staff tells me I was already on it.
    Mr. Pyle. Okay, well, we appreciate that very much and I am 
open for any questions. Thank you.
    [Prepared statement of Mr. Pyle appears in appendix.]
    The Chairman. Thank you.
    Yes; it was interesting to me, some of the words that they 
used, because they had no language for artillery, submarines, 
tanks, things like that. I understand the Navajos, in fact, I 
do not know if it was submarines or tanks, they referred to 
them as turtles. I can imagine the confusion by Germans trying 
to listen in. There were a number of turtles moving southeast, 
or something. It was great.
    We will go now to Melvin Kerchee, please.
    Mr. Kerchee. Thank you, Mr. Chairman. For the record, we 
have a prepared statement.
    The Chairman. That will be included in the record. How is 
Wally Coffee? Is he doing fine down there?
    Mr. Kerchee. Yes; he is.
    The Chairman. Tell him hello for me.
    Mr. Kerchee. I have a prepared statement on behalf of Mr. 
Charles Chibitty, our last living Comanche codetalker.
    The Chairman. He is still alive?
    Mr. Kerchee. Yes; he is, but his health is in a situation 
that he could not travel.
    The Chairman. I understand. His letter will be included in 
the record.
    Mr. Kerchee. For the record, the Choctaws are not quiet in 
Oklahoma.
    The Chairman. Now, no intertribal problems here. 
[Laughter.]
    Mr. Kerchee. But very wonderful.
    To the left, Mr. Chairman, you will see the Comanche 
codetalkers on the panel.
    The Chairman. Yes; I looked at that picture.
    Mr. Kerchee. I will read my statement.

  STATEMENT OF MELVIN KERCHEE, SECRETARY-TREASURER, COMANCHE 
                             NATION

    I am Melvin Kerchee, Secretary-Treasurer of the Comanche 
Nation. I have the honor this morning as the official 
representative of the government of the Comanche Nation to 
speak on behalf of Charles Chibitty, the last Comanche 
codetalker.
    It is a title he carries with deep pride and a certain 
degree of sadness. The pride he feels arises from the 
opportunity to serve his country, the United States of America, 
up the slopes of Utah Beach at Normandy and across the 
battlefields of Europe during World War II. It is the pride he 
feels because he and 13 other Comanche warriors were able to 
use their own Comanche language to devise an unbreakable code.
    It is a pride that all Indians feel because of the numbers 
of American Indians who enlisted in the military. The Saturday 
Evening Post editorial board suggested in 1941 that the draft 
would not be needed if other young men volunteered like the 
American Indian men. Historians say that the Indians enlisted 
in greater proportions to their numbers than all other people 
in the United States.
    The sadness he feels arises from the fact that recognition 
of the extraordinary service of the codetalkers and the work of 
the codetalkers in arms comes in the twilight of his years, and 
that his fellow codetalkers are not here to share his 
recognition. Gone are Haddon Codynah, Robert Holder, Forrest 
Kassanavoid, Willington Mihecoby, Perry Noyebad, Clifford 
Otitivo, Simmons Parker, Melvin Permansu, Dick Red Elk, Elgin 
Red Elk, Larry Saupitty, Morris Sunrise, and Willie Yackeschi.
    The story of the codetalkers are considered classified 
information, and it was not released until 1968. The story has 
leaked into history and out of our awareness, like a dripping 
faucet, drop by drop.
    The Navajo codetalkers are, of course, the most prominent 
in the public at large, but there has been little recognition 
in the United States of other tribes' military service as 
codetalkers. For the Comanche, it was initially the French 
Government who recognized their contribution when in 1989 it 
awarded the Choctaw and the Comanche chiefs the Chevalier of 
the National Order of Merit in recognition of the codetalkers' 
duties for their respective service in World War I and World 
War II. At that time, Forrest Kassanavoid and Roderick Red Elk 
were still with us.
    In 1995, Mr. Chibitty received the Knowlton Award created 
by the Military Intelligence Corps Association to recognize 
significant contributions to military intelligence efforts. The 
award is named in honor of Revolutionary War Army Lieutenant 
Colonel Charles Knowlton.
    Finally on November 30, 1999, Mr. Chibitty, then 78, was 
honored in Washington, DC at the Department of Defense as the 
last surviving World War II Army Comanche codetalker, during a 
ceremony in the Pentagon's Hall of Heroes. Sadly, however, 
there has never been formal recognition of the Comanche 
codetalkers by the U.S. Government.
    Two bills introduced in Congress, S. 540 and H.R. 1093, as 
the Code Talkers Recognition Act, focus on the contributions of 
American Indian soldiers during the Second World War. These 
bills and similar legislation, as well as this hearing, help 
focus attention on the critical strategic service provided by 
the codetalkers that is long overdue. I would urge Congress to 
act quickly so that these American Indian heroes, these United 
States soldiers can be honored properly.
    I thank you.
    [Prepared statement of Mr. Kerchee appears in appendix.]
    The Chairman. Thank you.
    Mr. Keahna.
    Mr. Keahna. Good morning, Mr. Chairman.
    Before I begin my statement, I would like to thank the 
committee for giving us the opportunity to travel to 
Washington. I heard your remarks on the museum yesterday, last 
night on the radio as I was getting ready to go to sleep. 
Indeed, that was very moving.
    The Chairman. Thank you. I hope it was not the remarks that 
put you to sleep.
    Mr. Keahna. You got me. [Laughter.]

STATEMENT OF SAMSON KEAHNA, VIETNAM VETERAN, SAC AND FOX TRIBE 
 OF THE MISSISSIPPI IN IOWA ACCOMPANIED BY WAYNE PUSHETONEQUA, 
  COUNCIL MEMBER, SAC AND FOX TRIBE OF THE MISSISSIPPI IN IOWA

    My name is Samson Keahna. I am also a Vietnam veteran. I 
served there in 1966 and 1967. I have had a great opportunity 
to sit down with our last surviving codetalker, Mr. Sanache. 
That is that gentleman there in the picture on the right side 
over there, in front of the dais.
    When we did share some stories, he could be very comical 
when we were sitting there. He told a couple of stories about 
being in Tunisia at the time. I told him I had only made one 
trip to Italy in 1990. He said, well, there was no war going on 
there, and kind of grinned at me. But he could be a funny man 
when he wanted to be, but he really did not talk very much 
about his war experiences, as you know from other veterans. He 
had that post-traumatic stress and it really affects us.
    But on to my statement. On behalf of the Meskwaki Nation, 
thank you for the opportunity to appear today. It is an honor 
for me to speak in support of the Meskwaki codetalkers and 
those from other tribes who gave generously of their time and 
risked their lives on behalf of this country. The story of the 
codetalkers and the important role they played in our military 
is well documented, so I will be brief in my remarks.
    Until 1968, information related to the codetalkers' 
activities during both World War I and World War II remained 
classified by the Department of Defense. Bound by their honor 
and obligation, the codetalkers said nothing about the 
essential role they played on behalf of our country. Instead, 
they lived humbly among us as friends, brothers, uncles, 
fathers and grandfathers.
    In 2000, Congress passed legislation to award gold medals 
to 29 members of the Navajo Tribe who served as codetalkers. 
This measure was an excellent first step in recognizing men who 
served their country bravely. But it was only one step, and 
more work remains to be done to ensure that we honor all of 
those worthy individuals. We must provide codetalkers from the 
remaining 18 tribes the same recognition the Navajo Nation 
deserved.
    We must pass the Code Talkers Recognition Act now. The 
codetalkers deserve to be awarded for their bravery and for 
aiding their comrades to help gain in the victory over their 
adversaries, with countless forays against heavy odds. With 
their ingenuity, these brave warriors enabled our military and 
that of our allies to secure our Nation's freedom and security.
    In turn, our tribe has used those freedoms to cultivate our 
culture, our history, and above all, our unique Meskwaki 
language. As such, we continue to contribute to the rich 
diversity that befits our great Nation.
    Time is of the essence. Already, we have lost too many of 
these great warriors. Each of the men who served as a 
codetalker deserves to know that the nation they served honors 
their sacrifices. For those whom we have lost, we must 
demonstrate to their families that they have not been 
forgotten.
    I would hope that your committee will grant these brave 
warriors the commendations that they have deserved for more 
than 60 years. Sir, may the Great Spirit be with you in your 
decision. Thank you.
    [Prepared statement of Mr. Keahna appears in appendix.]
    The Chairman. Thank you.
    Dr. Meadows? Your complete written testimony will also be 
in the record if you would like to abbreviate.

   STATEMENT OF WILLIAM C. MEADOWS, PROFESSOR, DEPARTMENT OF 
SOCIOLOGY AND ANTHROPOLOGY, SOUTHWEST MISSOURI STATE UNIVERSITY

    Mr.Meadows. Thank you.
    I would like to thank Senator Tom Daschle, Chairman Ben 
Nighthorse Campbell, our university president, John Keiser at 
Southwest Missouri State University, for helping me to come and 
testify today. I would like to also mention the late Forrest 
Kassanavoid, who had it not been for him, one of the Comanche 
codetalkers who was responsible for my research product that 
led into this work that I am going to talk about.
    I am the author of the Comanche Code Talkers of World War 
II. My scope initially was to start out and focus on the 
Comanches, but I soon traced it back, as many of these other 
gentleman have explained, to the Choctaws in World War I. So my 
work turned also into researching and identifying not only as 
many tribes and as many units as I could that used the American 
codetalkers, but also trying to identify individuals in those 
units. So my work was around that.
    I was asked to talk a little bit about the sources that I 
used. My sources are extremely wide. For the Choctaw material, 
I worked extensively with Judy Allen through correspondence. 
Judy is the editor of the Choctaw tribal newspaper, Bishinik. 
She had been involved in researching the Choctaw codetalkers 
well before I became involved in this research, to award them 
by the French government and the State of Oklahoma in 1989. So 
with her, I worked a lot on the Choctaw information.
    The Comanche data I have were from the three surviving 
Comanche codetalkers who saw combat, and also another 
individual who went through the training program, but who was 
discharged prior to going overseas, as well as their actual 
training officer, who is now retired, Major General Hugh F. 
Foster.
    Other material as far as other groups came from various 
news reports, tribal newspapers, et cetera, of individuals who 
were helping me to identify both units and groups. Of the 18 
groups, for example in World War II, I have been able to come 
up with some type of, if you want to say provenance for 12 of 
the 15 groups in terms of what division, for some individuals 
even their company, regiment, battalion, so forth and so on.
    In World War I, we have only been able to pin down actually 
one of the six groups that was used, but two others we have 
good suspicions that they were probably in the same division, 
the 36th Infantry Division from Oklahoma.
    One thing I would like to point out from my research, is 
what I found from looking at the documentation and working with 
actual codetalkers, is that it is important to realize there 
are actually two distinct types of Native American codetalking. 
The initial formation of it was kind of a de facto accident, 
per se. Captain Horner overheard a number of Choctaws speaking 
around a camp and realized they had a common language that the 
Germans did not know. In time, they formed some actual code 
words and formed, if you will, a body of coded words to use.
    This continued in World War II with, for example, the 
Comanches were actively recruited in December 1940. The 
Meskwaki from Iowa were also actively recruited prior to World 
War II beginning, as were the Chippewa and Oneida from 
Michigan. The Navajo, of course, were recruited later, in 1942.
    The other groups that I have been able to locate to the 
best of my knowledge at this time were formed not specifically 
prior to the war, but simply after a group realized they had a 
number of similar tribal members speaking a common language in 
a military unit. So they were used or put together on kind of a 
de facto basis. The term I heard commonly used was use them if 
you have them, basically is what the word in the military was.
    So there are really two types of code. What I designate as 
type one, in other words, formally developed or specially coded 
vocabularies that are used within native languages. So it is a 
type of a double code. You have a foreign language, and then 
you have a code within the foreign language. Then type two, 
which many other groups was, was just the informal use of 
everyday language. To what degree some coded words may have 
been added into that is really hard to determine at this time, 
but quite possible.
    In terms of their circumstances in service, one of the 
things I would like to point out is that we know exactly that 
there were 420 Navajo codetalkers. We know that there were 17 
Comanches; that there were 19 Sac and Fox, of which eight 
served as codetalkers, et cetera. Just on a rough estimate, I 
have estimated that probably around 600, and this is only an 
estimate at this time. There could easily be more, but probably 
around 600 Native Americans served as actual Native American 
codetalkers in World War II.
    To me, one of the things that I stress in my research is to 
look at the willingness, the high percentage of voluntary 
enlistment, and to look at their willingness, because most of 
these men were actually young to middle to late-teenagers. They 
came straight out of Indian boarding schools or straight out of 
high schools in which they were actively inhibited and 
discouraged from speaking their traditional languages, and 
their willingness to hang onto that language, and then to turn 
around and use it for a system to help defend both their tribes 
and the United States is very gracious and everything.
    The thing about their languages is that in military coding 
at this time it sometimes could take up to an hour and in some 
cases hours to send a message, in which the message had to 
encoded, put into a coded machine or something, transmitted, 
and then uncoded or decoded. This could take several hours. 
With groups like the Comanches, like the Choctaws, like the 
Navajos, et cetera, it was simply two gentlemen speaking on a 
phone. They could turn around and immediately translate it back 
in here. So you had a matter of seconds, as opposed to a matter 
of minutes or potential hours. So the speed and the accuracy 
was the key advantage here.
    In my opinion, the contribution of the codetalkers in World 
War I and World War II should not be judged on their numbers, 
but by the unique historical circumstances of their bilingual 
and bi-cultural background and their willingness to use this in 
defense of their own people and the United States. We have some 
evidence that these were very effective.
    For example, a few days after D-Day when the Comanches 
landed on Utah Beach, a group of the 4th Division on a probing 
mission found themselves surrounded by superior German force. 
They retreated back into a wooded area and basically remained 
undetected, but realized they were completely surrounded by a 
larger force. They knew the minute they sent a message, it 
would be picked up and their location would be given away.
    So they needed that message to not be in English. They 
asked if any of the codetalkers were with them, and luckily 
Larry Saupitty was in that group. He was brought forward. He 
sent a message explaining their dire circumstances to which 
they were reinforced, and the entire group was saved from what 
would have been quickly being overrun.
    I am sorry. Elgin Red Elk is the gentleman who did that. 
Larry Saupitty was the orderly and communications operator for 
Brigadier General Theodore Roosevelt, Jr. He is the gentleman 
who landed in the first wave at D-Day with Roosevelt and 
reported the message in Comanche, basically ``safe landing, 
wrong beach, what now?'' So several of these gentleman were 
used in very active situations.
    In terms of recognition, the Comanches were honored by 
their individual families when they came home. Forrest 
Kassanavoid, for example, the minute he stepped off the train, 
his dad asked him if he brought anything back. He produced a 
Nazi flag. His aunt proceeded to lay it on the concrete 
sidewalk and they placed him on it, and have him dance a 
victory dance on the spot. These were common events in Oklahoma 
in 1946.
    The tribe did honor them in 1946 at a large pow-wow at 
Walters that eventually became what is now known as the 
Comanche Homecoming. From there, the recognition is virtually 
invisible until 1989, when again, the Oklahoma State government 
and the Government of France recognized them in a small 
ceremony at the Oklahoma State Capitol.
    From this standpoint, we begin to look at also some of the 
contributions. There are some really distinguished service from 
these individuals who are codetalkers. In World War I, Solomon 
Lewis won the Coeur d'Guerre from France and was awarded the 
silver star by General Pershing himself. Schlicht Billy, a 
Choctaw from Oklahoma in World War II is reported to have been 
the first American to break through the Siegfried Line. He 
captured a machine gun nest and was seriously wounded in doing 
this, but his penetration of this line allowed Major Jack 
Treadwell and other members of his unit, Choctaw members to 
penetrate and actually open up part of the Siegfried Line.
    In World War II, Willie Yacheschi, Robert Holder, Larry 
Saupitty, Forrest Kassanavoid, and Perry Noyabad, all 
Comanches, were all wounded in action and several of them 
received bronze stars. So we have a true record of quite a bit 
of service here.
    I strongly urge the committee to seek further research on 
this subject and to please pass any legislation that we could 
to bring these men contributions and honors. Some possibilities 
might include similar types of medals or certificates, as were 
given the Navajo; some sort of a plaque that could be put at 
the respective tribal offices for the tribal members; and also 
perhaps the consideration of a small monument or plaque or 
something here in the Nation's Capital to recognize and 
commemorate their service.
    Thank you very much for allowing me to testify.
    [Prepared statement of Mr. Meadows appears in appendix.]
    The Chairman. We are going to proceed on all fronts, you 
might say, as well as we can. Getting a plaque or a monument at 
the capitol takes years. In fact, I was involved in that as a 
member of Veterans Affairs when we wanted to upgrade the wall, 
for those of you who are of Vietnam vintage, because there were 
many American soldiers that died after they came back, but as a 
result of combat, from Agent Orange or things of that nature, 
all kinds of reasons. Their names were not included on the 
wall. So we had to get a special plaque put up right near the 
wall, as you probably know.
    I think we worked on it for 4 years. It took a long time to 
do it. There is a group that really controls what goes on the 
Mall. It is an appointed group here in Washington. They 
historically have opposed everything that goes on the Mall. I 
think they would still like to have it a swamp, rather than 
monuments to our great war heroes.
    So it is not easy to do. In fact, the World War II 
memorial, as you know, they opposed that, if you remember. We 
had to pass a special bill through the House and the Senate, 
and President Bush signed it, where we overruled that whole 
commission and said we were going to do it anyway. They were 
not thrilled with us.
    So that part might be difficult, but certainly the other 
things you have suggested to the committee, I know we will be 
very supportive of that.
    I do appreciate all of you being here today. Any further 
comments that you or anyone in the audience would have on this 
issue, we will keep the record open for 2 weeks. As you know, 
we adjourn in just a few short weeks, so we are going to try 
and proceed as well as we can before that time. So if you have 
additional comments, get them in as soon as you can.
    With that, thank you, and this committee is adjourned.
    [Whereupon, at 11:15 a.m. the committee was adjourned, to 
reconvene at the call of the chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


 Prepared Statement of Brigadier General [ret.] John S. Brown Chief of 
                      Military History, U.S. Army

    Thank you for this opportunity to comment on the contributions of 
Native American code talkers in American military history. Native 
Americans have a long and proud tradition of military service to their 
several nations and to the United States of America. Our Army archives 
are replete with tales of their valor, and Army museums feature 
equipment they have used and medals they have won under trying 
circumstances. Among their unique contributions has been their service 
as code talkers to secure command and control on the battlefield.
    By the early years of the 20th century, command and control had 
become heavily dependent upon electrical communications. Vastly 
increased distances, dispersion, and spans of control required the use 
of what were then considered modern technologies, such as sound 
locators, buzzer-phones, and radios, with the land-line telephone 
emerging as the preferred and most reliable means of communication for 
ground combat during World War I. Unfortunately, land-lines could be 
tapped, and our German adversaries too often listened in. The 36th 
Division, for example, reported having circulated the coordinates of a 
supply dump, only to find that location inundated by enemy artillery 
fire within minutes. Other divisions similarly reported facilities or 
operations compromised and lives lost because of intercepted 
communications. Techniques of encryption that did exist proved too 
cumbersome to accommodate fluid tactics.
    That same 36th Division had within its ranks a company of American 
Indians who spoke a total of 26 native languages. Only four or five of 
those languages had been captured in writing. Someone suggested placing 
an American Indian soldier in each key tactical command post so that 
the division could rapidly communicat6 sensitive information in a 
language that the eavesdropping Germans could not possibly understand. 
Choctaw was selected as that language. The experiment worked so well 
that a regimental commander attributed the success of a delicate, 
nighttime tactical withdrawal--and again a major assault the following 
day--to the complete surprise achieved by using the Choctaw language to 
coordinate operations. The idea caught on. By the end of World War I, 
Cherokee, Cheyenne, Comanche, Osage, and Yankton soldiers were also 
serving as code talkers.
    When World War II began, the U.S. Army and Marine Corps drew upon 
the service of code talkers in a more organized manner. By then the 
preferred method of communication was increasingly the wireless radio; 
however, radio signals were even more vulnerable to interception than 
the telephone. In January 1941, the U.S. Army recruited Comanche code 
talkers to serve in its 4th Infantry Division, and a few months later 
the Marines began recruiting Navajo for the same purpose.
    In the European theater, the Army's Comanche codetalkers came 
ashore on D-Day. On Utah Beach, a Comanche codetalker [Larry Saupitty] 
sent Brig. Gen. Theodore Roosevelt Jr's critical message to reinforce 
an initial landing that ended up 2,000 yards away from its designated 
beaches. Saupitty's message was classic in its simplicity: ``We made 
good landing. We landed at the wrong place.'' As the Allied troops 
pushed out of the beachhead, codetalkers accompanied the leading 
regiments and provided communications throughout the breakout across 
France. Scattered throughout the division in two-man teams, codetalkers 
relayed vital messages that utterly precluded the enemy interceptions 
of them.
    In the Pacific, the Navajo codetalkers took part in every major 
Marine Corps operation and served in all six Marine divisions, 
transmitting messages by telephone and radio in their native tongue. 
First used on Guadalcanal in the fall of 1942, Navajo techniques 
reduced the time used for encoding and decoding messages by one-half. 
Their greatest test was in early 1945, when three Marine divisions 
stormed Iwo Jima. In the first 2 days of fighting, 6 Navajo codetalkers 
worked around the clock, sending and receiving more than 800 messages 
without a single error. One Marine signal officer noted, ``Were it not 
for the Navajo, the Marines would never have taken Iwo Jima.'' I highly 
recommend William C. Meadows' book, ``The Comanche Code Talkers of 
World War II'' as a discussion of the Army's codetalking contingent, 
and Doris A. Paul's, ``The Navajo Code Talkers'' as a discussion of the 
Marine's. I point out, too, that the Navajo were the subject of the 
recent movie ``Windtalkers.'' Perhaps less familiar to the public, but 
equally deserving of our praise, are the Assiniboin, Cherokee, 
Chippewa, Oneida, Choctaw, Hopi, Kiowa, Menominee, Muscogee, Creek, 
Seminole, Pawnee, Sac, Fox, Lakota, and Dakota, who also served in our 
armed forces as code talkers. It is impossible to calculate how many 
operations were successful and how many lives were saved because of 
communications secured by the code talkers.
    It may well be that contemporary encryption technology has carried 
us beyond the era in which the services of the code talkers proved most 
useful. However, an underlying principle remains valid: That the 
diversity and richness of American culture renders it far more capable 
than it would otherwise be of coping with the challenges of an 
uncertain world. Also, the unique and extraordinary record of Native 
American service in the Armed Forces of the United States continues 
unbroken, as our accumulating record of current operations attests.
    Thank you.
    [Responses to questions follows:]
    Question 1: Is the Center for Military History looking into a 
project to further identify and develop the history of the American 
Indian codetalkers in the Army? If not, would this be a possibility?
    Answer: The Center of Military History is compiling a data base 
identifying the codetalkers and detailing their contributions. We are 
exploring ways to contact the various tribes to enlist their assistance 
in identifying those members who served as codetalkers, both formally 
and informally. The information gathered will be used in the next 
revision of our volume, Getting the Message Through: A Branch History 
of the U.S. Army Signal Corps, to expand its discussion of the use of 
Native American codetalkers in both World Wars I and II. This 
information will also be made available to other historians and 
historical researchers.
    Question: 2 From my understanding, the Army Signal Corps was the 
branch that had an American Indian Codetalkers program. What were the 
duties of the Army Signal Corps? Do you know of any of the other 
encryption technologies that were being utilized during World War I and 
World War II?
    Answer: Since its original organization in 1860, the Signal Corps 
has been the Army's communications branch. In short, its mission is to 
get the message through. With the introduction of longer range weapons 
during the 19th century, a commander could no longer control his troops 
by voice alone. From simple signaling techniques using flags and 
torches, the Corps' responsibilities have grown to encompass message 
transmission by telegraph, telephone, radio, computers, and satellites. 
During the 20th century, the introduction of radio and other broadcast 
media greatly increased the need for communications security. Elaborate 
codes and ciphers were developed to prevent the enemy from listening 
in. The Signal Intelligence Service, established in 1929 to control 
Army cryptology, ultimately became today's National Security Agency. 
During World War II the Army employed a number of sophisticated 
encryption methods and machines. The SIGSALY, for instance, masked 
encoded messages behind a fog of white noise. The Germans used Enigma. 
In field situations where technical means of security were not 
available or appropriate, Native American codetalkers were sometimes 
used, and proved very effective.
    Question 3: Do you know the numbers of American Indians who served 
in World War I and World War II? Do you know how many served as 
codetalkers?
    Answer: Approximately 12,000 Native Americans served in the armed 
forces during World War I. For World War II, the number climbed to over 
44,000. Dr. William C. Meadows, the author of The Comanche Code Talkers 
of World War II conducted exhaustive research to identify Native 
Americans who served both formally and informally as codetalkers. He 
successfully identified the 15 Choctaws who served as codetalkers in 
the 36th Division during World War I. Due to the lack of documentation, 
he could not determine how many members of other tribes may also have 
performed such duties, either formally or informally. Seventeen 
Comanches participated in the Signal Corps' formal code talking program 
in the 4th Infantry Division during World War II, and 420 Navajo served 
with the Marine Corps in the Pacific. According to Meadows, however, 
there were many more American Indians who used their native languages 
informally as codetalkers. Dr. Meadows concluded that members of at 
least 16 tribes acted as codetalkers in some capacity. As I stated in 
my testimony on September 22, the total number of formal and informal 
codetalkers within the Army could have been as high as 21,000, assuming 
that all bilingual American Indians used both their native language and 
English to facilitate communications at one time or another. For the 
armed forces as a whole, the number could have been as high as 30,000.
    Question 4: What do you think is a proper and appropriate 
recognition for these codetalkers? Do you know whether the Department 
of Defense supports a formal recognition for these Codetalkers?
    Answer: The Center of Military History, as an agent of DOD, has 
been empowered to collect data regarding the codetalkers and to support 
their recognition. A useful precedent has been set by the Navy with the 
recognition of the Navajo codetalkers. The original 29 codetalkers 
received Congressional gold medals; those who later qualified as 
codetalkers received silver medals. The Center believes that similar 
recognition for codetalkers from other tribes would be both proper and 
appropriate to honor their unique and extraordinary service. 
Unfortunately, there are no surviving Choctaw codetalkers and only one 
of the original 17 Comanche codetalkers, Charles Chibitty, is still 
living.
    Unfortunately, there was no military skill identifier for 
codetalkers. Therefore, I would recommend that recognition be limited 
to those individuals whose language skills can be reasonably documented 
or authenticated as having been used to ensure communications security 
in tactical situations. For those tribes that contributed codetalkers, 
Congress could present and furnish a plaque for display in tribal 
areas.
                                 ______
                                 

      Prepared Statement of Charles Chibitty, Comanche Code Talker

    I am the last surviving Comanche Code Talker.
    The Comanche Code Talkers were an elite group of young men who were 
fluent in the Comanche language and we used that knowledge, along with 
our U.S. Army Signal Corps training, to send critical messages that 
confused the enemy during World War II; 20 of us were originally 
recruited, 17 of us were trained in communications, and 14 were 
deployed to the European theater. We were assigned to the 4th Infantry 
Division at Fort Benning, Georgia and began our training in January 
1941. Lieutenant Hugh Frost took charge of our Comanche unit.
    Our unit landed on the Normandy shores on the first or second day 
after D-Day. After we hit Utah Beach, our first radio message was sent 
to another Code Talker on an incoming boat. Translated into English, it 
said: ``Five miles to the right of the designated area and 5 miles 
inland, the fighting is fierce and we need help.'' We were trying to 
let them know where we were so they would not lob any shells on us. I 
was with the 22d Infantry Regiment of the 4th Infantry Division. We 
talked Comanche and sent messages when need be. It was quicker to use 
telephones and radios to send messages because Morse code had to be 
decoded and the Germans could decode them. We used telephones and 
radios to talk Comanche then wrote it in English and gave it to the 
commanding officer.
    Two Comanches were assigned to each of the 4th Infantry Division's 
three regiments. We sent coded messages from the front line to division 
headquarters, where other Comanches decoded the messages.
    An example of a message we sent to other units is this: ``A turtle 
is coming down the hedgerow. Get that stovepipe and shoot him.'' A 
turtle was a tank and a stovepipe was a bazooka. We couldn't say tank 
or bazooka in Comanche, so we had to substitute something else. A 
turtle has a hard shell, so it was a tank.
    There was no Comanche word for machine gun so we used ``sewing 
machine,'' because of the noise the sewing machine made when my mother 
was sewing. Hitler was ``posah-tai-vo,'' or ``crazy white man.''
    There are no words in Comanche to say bomber aircraft. When daddy 
and I went fishing when I was a boy and we cut a catfish open, 
sometimes it would be full of eggs. Well, that bomber aircraft was just 
like the catfish full of eggs, too, so we called it a pregnant 
airplane.
    We got so we could send any message, word for word, letter for 
letter. The Navajos did the same thing in the Pacific during World War 
II and the Choctaw used their language during World War I. There were 
other code talkers from other tribes, but if they didn't train like the 
Comanche and Navajos, how could they send a message like we did? If 
they made a slight mistake, instead of saving lives, it could have cost 
a lot of lives.
    I felt I was doing something that the military wanted us to do and 
we did to the best of our ability, not only to save lives, but to 
confuse the enemy by talking in the Comanche language. We felt we were 
doing something that could help win the war.
    When I attended Indian school in the 1920's, teachers got angry 
when we spoke Comanche. When we talked Comanche, we got punished. I 
told my cousin that they were trying to make little white boys out of 
us. After joining the Army it was the other way around. In school they 
tried to make us quit talking Comanche, and in the Army they wanted us 
to talk Comanche.
    When I talk about my Comanche comrades, I always wonder why it took 
so long for recognition of our service. They are not here to enjoy what 
I am getting after all these years. Yes, it's been a long, long time.
    The only thing I regret is my fellow codetalkers are not here. But 
I have a feeling those boys are here somewhere listening and looking 
down.
    My last fellow codetalker died in September 1998. All those other 
boys up there were welcoming him home. They were hugging and kissing 
him and, while they were doing that, they said, `Wait a minute, we've 
still got one more down there. When Charles gets up here, we're going 
to welcome him just like we're welcoming you.'
                                 ______
                                 

     Prepared Statement of Samson Keahna, Sac and Fox Tribe of the 
                          Mississippi in Iowa

    Mr. Chairman:
    On behalf of the Meskwaki Nation, thank you for the opportunity to 
appear today. It is an honor for me to speak in support of the Meskwaki 
Code Talkers and those from other tribes, who gave generously of their 
time and risked their lives on behalf of this country. The story of the 
Code Talkers and the important role they played in our military is well 
documented so I will be brief in my remarks.
    Until 1968, information related to the Code Talkers activities 
during both World War I and World War II remained classified by the 
Department of Defense. Bound by their honor and obligation, the Code 
Talkers said nothing about the essential role they played on behalf of 
our country. Instead, they lived humbly among us as friends, brothers, 
uncles, fathers, and grandfathers.
    In 2000, Congress passed legislation to award gold medals to 29 
members of the Navajo Tribe who served as Code Talkers. This measure 
was an excellent first step in recognizing men who served their country 
bravely. But it was only one step and more work remains to be done to 
ensure that we honor all of these worthy individuals. We must provide 
Code Talkers from the remaining 18 tribes the same recognition the 
Navajo deserved. We must pass The Code Talkers Recognition Act now.
    The Code Talkers deserve to be awarded for their bravery, and for 
aiding their comrades to help gain in the victory over their 
adversaries, with countless forays against heavy odds. With their 
ingenuity, these Brave Warriors enabled our military and that of our 
allies to secure our Nation's freedom and security. In turn, our tribe 
has used those freedoms to cultivate our culture, our history, and 
above all, our unique Meskwaki Language. As such, we continue to 
contribute to the rich diversity that befits our great Nation.
    Time is of the essence. Already we have lost too many of these 
great warriors. Each of the men who served as a Code Talker deserves to 
know that the Nation they served honors their sacrifices. For those 
whom we have lost, we must demonstrate to their families that they have 
not been forgotten.
    I would hope that your committee will grant these Brave Warriors 
the commendations that they have deserved for more than 60+ years.
    May the Great Spirit be with you in your decision. Thank you.
                                 ______
                                 

  Prepared Statement of Melvin Kerchee, Secretary-Treasurer, Comanche 
                                 Nation

    Chairman and honorable members of the committee, thank you for the 
opportunity to appear before you today. I am Melvin Kerchee, Jr., 
Secretary-Treasurer of the Comanche Nation. I have the honor this 
morning, as the official representative of the government of the 
Comanche Nation, to accompany Charles Chibitty, the last of the 
Comanche Code Talkers. It is a title he carries with deep pride and a 
certain degree of sadness. The pride he feels arises from the 
opportunity to serve his country, the United States of America, up the 
slopes of Utah Beach at Normandy and across the battlefields of Europe, 
during World War II. It is a pride he feels because he and 13 other 
Comanche warriors were able to use their own Comanche language to 
devise an unbreakable code. It is a pride that all Indians feel because 
of the numbers of American Indians who enlisted in the military. The 
Saturday Evening Post editorial board suggested in 1941 that the draft 
would not be needed if other young man volunteered like American Indian 
men. Historians say that Indians enlisted in greater proportions to 
their numbers than all other people in the United States.
    The sadness he feels arises from the fact that recognition of the 
extraordinary service of the Code Talkers and the work of his comrades 
in arms comes in the twilight of his years and that his fellow Code 
Talkers are not here to share this recognition. Gone are:
    Haddon Codynah, Robert Holder, Forrest Kassanovoid, Willington 
Mihecoby, Perry Noyebad, Clifford Otitivo, Simmons Parker, Melvin 
Permansu, Dick Red Elk, Elgin Red Elk, Larry Saupitty, Morris Sunrise, 
and Willie Yackeschi.
    The story of the Code Talkers was considered classified information 
and not released until 1968. The story has leaked into history and our 
awareness like a dripping faucet, drop by drop. The Navajo Code Talkers 
are of course the most prominent in the public at large, but there has 
been little recognition in the United States of other tribes' military 
service as Code Talkers.
    For the Comanche, it was initially the French Government who 
recognized their contribution when, in 1989, it awarded the Choctaw and 
Comanche chiefs the Chevalier de L'Ordre National du Merit (Chevalier 
of the National Order of Merit) in recognition of the code talker 
duties for their respective service in World War I and World War II. At 
that time Forrest Kassanavoid and Roderick Red Elk were still with us.
    In 1995, Mr. Chibitty received the Knowlton Award, created by the 
Military Intelligence Corps Association to recognize significant 
contributions to military intelligence efforts. The award is named in 
honor of Revolutionary War Army Lt. Col. Thomas Knowlton.
    Finally, on Nov. 30, 1999, Mr. Chibitty, then 78, was honored in 
Washington, DC at the Department of Defense, as the last surviving 
World War II Army Comanche ``Code Talker'' during a ceremony in the 
Pentagon's Hall of Heroes. Sadly, however, there has never been formal 
recognition of the Comanche Code Talkers by the U.S. Government.
    Two bills introduced in Congress, S. 540 and H.R. 1093, as the 
``Code Talkers Recognition Act,'' focus on the contribution of American 
Indian soldiers during the Second World War. These bills or similar 
legislation, as well as this hearing, help focus attention on the 
critical strategic service provided by the Code Talkers that is long 
overdue. I would urge Congress to act quickly so that these American 
Indian warriors, these United States soldiers can be honored properly. 
Thank you.
                                 ______
                                 

 Statement of Don Loudner, National Commander, American Indian Veterans

    Mr. Chairman and members of the committee:
    Thank you for the opportunity to testify today on an issue that is 
very important to me--appropriate recognition for all American Indian 
Code Talkers. I am honored to be here.
    American Indians have a long and proud history of service in the 
military. Statistically, American Indians volunteer to serve their 
country at a higher percentage during all wars or conflicts than any 
other ethic group.
    In fact, American Indians fought for the United States of America 
before they were recognized as citizens of their own country.
    The Department of Veterans Affairs acknowledges that American 
Indians have the highest rate of military service among all ethnic 
groups in the Nation, and the VA's statistics also show that the 
American Indian veteran is the least likely veteran to apply for the 
benefits he or she has earned.
    The American Indian Veteran has been forgotten or put on the back 
burner for far too long.
    During World War I and World War II, American Indian veterans from 
at least 17 Indian Nations served the armed forces of the United States 
in a vital and unique capacity, by using their native languages to foil 
enemy communications. They became known as Code Talkers from the use of 
their languages to transmit messages in a form the enemy could not 
decipher.
    Many of these veterans worked 24 hours around the clock in 
headphones when the action was the heaviest, without rest or sleep. 
Their work saved the lives of countless other Americans and Allied 
Forces. These Code Talkers deserve their own pages in the national 
memory of the great world wars.
    But I fear many Code Talkers could be forgotten. One tribe, the 
Navajo, has had its Code Talkers honored with medals from the U.S. 
Congress. The Comanche Code Talkers have a fine book written about 
them. But military records and other sources indicate that military 
Code Talkers came from many other tribes and spoke many other 
languages.
    The first official use of an American Indian language--based on 
code by the U.S. military--was in 1918, toward the end of World War I.
    Convinced that their communications lines were tapped, Captain E.W. 
Homer selected 14 Choctaws to transmit messages.
    In his report, the commanding officer, Col. A.W. Block, said, ``The 
enemy's complete surprise is evidence that he could not decipher the 
messages. The results were gratifying.'' Following that successful 
experiment, other Indians in the Expeditionary Force--Cheyenne, 
Comanche, Cherokee, Osage, and Sioux were called on to use their 
languages for field communications.
    In addition, to the fine service of the Navajo, 17 other tribes are 
mentioned as having Code Talkers during World War II:
    Choctaw, Comanche, Cheyenne, Cherokee, Chippewa, Creek, Hopi, 
Kiowa, Menominee, Muscogee-Seminole, Osage, Oneida, Pawnee, Pima-
Papago, Sauk and Fox, Sioux-(Dakota, Lakota, Nakota-Dialects), and 
Winnebago
    Mr. Chairman, we must act on two fronts: First, we must correct our 
Nation's military history, to ensure that the service and sacrifice of 
Code Talkers from all tribes is remembered; and second, our Nation must 
find an appropriate way to honor all Code Talkers.
    To properly honor the Code Talkers, we should have a public 
monument in our Nation's capital. I want to make sure that my 
grandchildren--and their countrymen--can see a permanent and prominent 
symbol. A symbol of a time when American Indian languages became a 
powerful weapon in the fight for freedom. My view is that the perfect 
location for such a monument would be the grounds of the new National 
Museum of the American Indian.
    I commend the Senate for honoring the Sioux Code Talkers in 1995. 
In the 104th Congress, the Senate approved S. Res. 116 on May 8, 1995, 
introduced by Senator Daschle, Senator Pressler, Senator Inouye, and 
Senator McCain.
    The Code Talkers from South Dakota were also honored in the 77th 
Legislature of the State of South Dakota, House Commemoration No. 1026. 
The South Dakota Legislature recognized the following Sioux Code 
Talkers for their immeasurable contribution to their Nation in a time 
of great need:
    Edmund St. John from the Crow Creek Sioux Tribe, Phillip ``Stoney'' 
LaBlanc from the Cheyenne River Sioux Tribe, Eddie Eagle Boy from the 
Cheyenne River Sioux Tribe, Guy Rondell from the Sisseton-Whapeton 
Sioux Tribe, John Bear King from the Standing Rock Sioux Tribe, Walter 
C. John from the Santee Sioux Tribe, Iver Crow Eagle from the Rosebud 
Sioux Tribe, Simon Broken Leg from the Rosebud Sioux Tribe, Charles 
Whitepipe from the Rosebud Sioux Tribe, Baptiste Pumpkinseed from the 
Oglala Sioux Tribe, and Clarence Wolf Guts from the Oglala Sioux Tribe.

[GRAPHIC] [TIFF OMITTED] T6125.001

[GRAPHIC] [TIFF OMITTED] T6125.002

[GRAPHIC] [TIFF OMITTED] T6125.003

[GRAPHIC] [TIFF OMITTED] T6125.004

[GRAPHIC] [TIFF OMITTED] T6125.005

[GRAPHIC] [TIFF OMITTED] T6125.006

[GRAPHIC] [TIFF OMITTED] T6125.007

[GRAPHIC] [TIFF OMITTED] T6125.008

[GRAPHIC] [TIFF OMITTED] T6125.009

[GRAPHIC] [TIFF OMITTED] T6125.010

[GRAPHIC] [TIFF OMITTED] T6125.011

[GRAPHIC] [TIFF OMITTED] T6125.012

[GRAPHIC] [TIFF OMITTED] T6125.013

[GRAPHIC] [TIFF OMITTED] T6125.014

[GRAPHIC] [TIFF OMITTED] T6125.015

[GRAPHIC] [TIFF OMITTED] T6125.016

[GRAPHIC] [TIFF OMITTED] T6125.017

[GRAPHIC] [TIFF OMITTED] T6125.021

[GRAPHIC] [TIFF OMITTED] T6125.022

[GRAPHIC] [TIFF OMITTED] T6125.023

[GRAPHIC] [TIFF OMITTED] T6125.024

[GRAPHIC] [TIFF OMITTED] T6125.025

[GRAPHIC] [TIFF OMITTED] T6125.026

[GRAPHIC] [TIFF OMITTED] T6125.027

[GRAPHIC] [TIFF OMITTED] T6125.028

[GRAPHIC] [TIFF OMITTED] T6125.029

[GRAPHIC] [TIFF OMITTED] T6125.030

[GRAPHIC] [TIFF OMITTED] T6125.031

[GRAPHIC] [TIFF OMITTED] T6125.032

[GRAPHIC] [TIFF OMITTED] T6125.033

[GRAPHIC] [TIFF OMITTED] T6125.034

[GRAPHIC] [TIFF OMITTED] T6125.035

[GRAPHIC] [TIFF OMITTED] T6125.036

[GRAPHIC] [TIFF OMITTED] T6125.037

[GRAPHIC] [TIFF OMITTED] T6125.038

[GRAPHIC] [TIFF OMITTED] T6125.039

[GRAPHIC] [TIFF OMITTED] T6125.040

[GRAPHIC] [TIFF OMITTED] T6125.041

[GRAPHIC] [TIFF OMITTED] T6125.042

[GRAPHIC] [TIFF OMITTED] T6125.043

[GRAPHIC] [TIFF OMITTED] T6125.044

[GRAPHIC] [TIFF OMITTED] T6125.045

[GRAPHIC] [TIFF OMITTED] T6125.046

[GRAPHIC] [TIFF OMITTED] T6125.047

[GRAPHIC] [TIFF OMITTED] T6125.048

[GRAPHIC] [TIFF OMITTED] T6125.049

[GRAPHIC] [TIFF OMITTED] T6125.050

[GRAPHIC] [TIFF OMITTED] T6125.051

[GRAPHIC] [TIFF OMITTED] T6125.052

[GRAPHIC] [TIFF OMITTED] T6125.053

[GRAPHIC] [TIFF OMITTED] T6125.054

[GRAPHIC] [TIFF OMITTED] T6125.055

[GRAPHIC] [TIFF OMITTED] T6125.056

[GRAPHIC] [TIFF OMITTED] T6125.057

[GRAPHIC] [TIFF OMITTED] T6125.058

[GRAPHIC] [TIFF OMITTED] T6125.059

[GRAPHIC] [TIFF OMITTED] T6125.060

[GRAPHIC] [TIFF OMITTED] T6125.061

[GRAPHIC] [TIFF OMITTED] T6125.062

[GRAPHIC] [TIFF OMITTED] T6125.063

[GRAPHIC] [TIFF OMITTED] T6125.064

[GRAPHIC] [TIFF OMITTED] T6125.065

[GRAPHIC] [TIFF OMITTED] T6125.066

[GRAPHIC] [TIFF OMITTED] T6125.067

                                 <all>

</pre></body></html>
